This report presents the conclusions of the OIG. The findings and recommendations contained in
this report do not necessarily represent CPB management’s final position on these matters. A
final management decision on the recommendations will be made by CPB officials in accordance
with established CPB audit resolution procedures. Based on CPB management’s response we
consider recommendations 1 and 3 resolved but open pending implementation of corrective
actions. Recommendations 2 and 4 are unresolved pending CPB final management decision.
CPB officials declined to implement recommendation 5. Since this recommendation does not
warrant elevating it for higher review, we consider it resolved and closed.



                                         Background
In June of 2011 we advised CPB that a large number of grants/contracts had not been closed out
and unused funds had not been deobligated to make them available for use on current projects.
CPB officials indicated they would be addressing these agreements in the near future. Early last
year we announced that we would be initiating a review of these projects, which we started in
June of 2012.

At the onset of our fieldwork we identified that 47 projects with endings dates of June 30, 2011 or
earlier were pending formal closeout actions by CPB. These 47 agreements had $6,434,658 in
accounts payable per Exhibit A. We used a June 30, 2011 cut-off date because this would have
allowed CPB a year’s time to closeout these projects.

Since March 2012 CPB officials have taken significant actions to secure final deliverables and
financial reports from the grantees/contractors to enable CPB to closeout these agreements.
From March 2012 through October 2012, CPB made payments to grantees/contractors totaling
$1,489,349, deobligated $1,356,324, and recovered $18,706 from grantees/contractors.
Additionally, we identified that two agreements grant period ending dates were erroneously
recorded in GIFTS; both grants ending dates were after our June 30, 2011 cut-off period (with
accounts payable of $3,408,142). A third agreement (with accounts payables of $40,000) was
extended until July 31, 2012 without a formal grant agreement amendment. CPB’s agreement to
extend the grant period was documented in an email to the grantee. With these various
adjustments, the October 2012 balance of open agreements in the backlog was reduced to 4
projects with accounts payables totaling $159,548, per Exhibit B.




                                                 2
                                            Findings
Lack of Reinforcement of CPB Closeout Procedures and Deobligation Policy
Contributed to Delays in Deobligating Unused CPB Grant Funds
Our review of a backlog of 47 open expired grants/contracts found that these specific projects
were not closed-out timely in accordance with CPB procedures, policies, and guidance. As a
result, unused CPB funds of $1,356,324 were not deobligated timely and made available to fund
other CPB activities.

More specifically, we found that project officers had not adequately focused on closing out expired
grants/contracts in accordance with established policy. Further, we found little evidence of
management and executive oversight of this backlog to reinforce CPB procedures, policies, and
guidance for managing the closeout of these specific projects. These findings only relate to the
backlog of open projects with ending grant periods of June 30, 2011 or earlier. We did not review
the management of any projects with ending dates after June 30, 2011.

CPB Contract Management Requirements

CPB’s procedures, policies, and guidelines for closing out grants and contracts are contained in
the following three documents.

       Contract Closeout Procedures

CPB’s Contract Closeout Procedures dated December 2010 provide guidelines regarding the
procedures that should be followed by all Project Officers when closing grant/contract
agreements. Project officers should initiate the closeout of each project immediately after the final
payment has been made. Additionally, under Deliverables Project Officers are responsible for
managing the receipt of all deliverables and ensuring that the deliverables are complete, timely
and accurate. Further, under Deobligations the procedures state “When there is a balance for the
project after all required payments have been made, Project Officers should deobligate those
funds.” Finally, under Contract Closeout Checklist Project Officers are required to complete the
Contract Closeout Checklist which certifies completion of all closeout required tasks as part of
closing the project. The completed Contract Closeout Checklist should be uploaded into GIFTS
along with the other required closeout documents.

       CPB Deobligation Policy

CPB’s Deobligation Policy dated January 30, 2008 addresses the deobligation of CPB funds for
projects completed under budget and provides for multiple approvals from CPB executives as
follows:

   In any instance where a project is completed at less than the total amount of
   the initial project budget, CPB shall deobligate a proportionate amount unless
   reasonable circumstances exist to justify not doing so. In each instance where
   CPB elects not to fully exercise its deobligation rights, the project officer shall
   document the reasonable basis for doing so, which shall then be approved by
   the department SVP. In the event that the dollar amount that CPB may
   deobligate exceeds $25,000, any decision not to deobligate shall require the
   additional approval of CPB’s COO.

                                                  3
       Project Officer Handbook

The Project Officer Handbook originally issued December 9, 2010, updated on November 4,
2011, and again on June 22, 2012 states under Contract Management Guidelines that: “Project
Officers are responsible for ensuring that all contract documents and data in CPB systems are
current, accurate, and complete. Project Officers are responsible for knowing the current status of
all projects in his or her portfolio.” Further, project officers must also ensure that each completed
contract has been accurately closed-out using CPB’s Contract Closeout Procedures.

Sampling Results

Our sample of 9 of these 47 backlogged projects found:

   •   9 of 9 grants/contracts’ final deliverables were not submitted to CPB within the grant
       agreement timeframes (generally 45 days following the expiration of the grant period);
   •   8 of 9 grants/contacts have now been closed out as of October 18, 2012 (the remaining
       open grant should be amended to extend the grant period);
   •   6 of 8 grants/contracts closed out did not use the Closeout Checklist established by the
       Contract Closeout Procedures dated December 2010;
   •   1 of 5 grants/contracts subject to deobligation did not obtain the written
       approval of the department’s Senior Vice President or Chief Operating
       Officer in accordance with policy, however the decision to not deobligate
       CPB’s proportionate share of unused funds ($30,998) was discussed with
       the COO; and
   •   the elapsed days between the final payment/deobligation date and the final
       report due date ranged from 163 to 2,141 days (from 5 to 71 months) as
       presented in Exhibit C.

Further, our testing identified actions on two projects that were not consistent with previous CPB
decisions creating a potential vulnerability for CPB (e.g., allegations of favoritism when policies
are not fully followed or exceptions are made from standard practices).

   •   An internet upgrade and monetization grant awarded to a TV station for use of the internet
       by other stations came in under budget by $50,000 (CPB’s proportionate share of the
       savings would have been $30,998). CPB decided not to deobligate CPB’s portion of the
       unused funds and made a final payment of $20,000 to reimburse the grantee the full
       $200,000 in CPB funds budgeted under the agreement.

       CPB officials explained that after researching the project file, conferring with OBA,
       reviewing the contract, and discussing with the COO, the CFO authorized the final
       payment. Further, officials explained that the final payment was consistent with the
       contract language that did not require pro-ration of expenses. Contract language stated
       “CPB shall reimburse Grantees for their actual fees and expenses as set forth in the
       Budget up to the amount of $200,000 (total CPB commitment).”

       While CPB has this flexibility under the CPB Deobligation Policy to pay the full amount of
       CPB’s commitment under this agreement, the rationale for the decision wasn’t
       documented by the Project Officer and the approvals of the department’s Senior Vice
       President and COO were also not documented. The last time we reported a similar



                                                 4
        finding, CPB’s management decision 1 resolving the recommendation, stated “CPB has
        adopted new administrative practices to ensure that decisions like this receive appropriate
        executive review.” That administrative practice was the CPB Deobligation Policy. This
        policy was not fully followed for this project underscoring the lack of adequate
        reinforcement of existing policies by departmental officials.

    •   A 2006 TV production grant with an ending date in 2007 was extended until 2008 by
        amendment. However, the grantee has not submitted their final deliverables and the grant
        has not been further extended by CPB. Recent discussions between the grantee and the
        CPB project officer revealed that the grantee is waiting for PBS to accept the production
        before submitting their final deliverables. At that time they will request payment of the
        remaining $50,000 available under the grant. The decision to not amend this grant in this
        instance creates a potential vulnerability because the independent producer was a former
        CPB employee.

Contributing Factors

Based on our review of the project files, interviews with project officers and departmental officials,
and discussions with executive team members, we identified the following contributing factors.

    •   Department management has not consistently monitored and ensured projects were
        closed out timely nor ensured that unused funds were de-obligated consistent with CPB
        close-out procedures, related policies, and guidelines;

    •   Project officer job performance elements did not specifically address project closeout
        requirements to reinforce importance of managing projects through closure;

    •   CPB officials said they had not historically focused on the close-out of completed
        grants/contracts leaving that to the executives of the respective departments;

    •   Each department uses different methods to track their projects and deliverables (e.g.,
        Outlook, tickler files, Excel and Share Point); there is no common method being used to
        track the status of open projects. CPB did not accept a previous OIG recommendation 2 to
        establish a common project database to be used by all CPB departments and executives
        to oversee and manage all grant/contract activities.

    •   All project officers have not been fully trained in CPB grant/contract management
        procedures, policies, and practices (Project Officer Handbook).

We also considered whether project officers’ workloads may have contributed to the delays
identified during our review. We found that the 27 project officers’ workloads averaged 9.8
projects (ranging from 1 – 33 projects for the 5 departments evaluated) per Exhibit D. However,
none of the departmental managers interviewed indicated that the project officers’ workload was a
problem or contributed to the delays in closing our completed grants/contracts.



1
  CPB’s management decision, dated June 25, 2010, for Audit Report No. AST702-802, Audit of Selected Corporation
for Public Broadcasting Production and Other Grants Awarded to Educational Broadcasting Corporation for Fiscal Years
2005 and 2006, dated March 31, 2008.
2
  CPB’s management decision, dated May 15, 2010, for Audit Survey of CPB’s Accountability Over Grants and
Contracts Awarded to PBS for FY 2006-2007, Survey Report No. EPT804-908, dated September 30, 2009.
                                                         5
In responding to our observation related to a common project database, CPB officials stated the
Concurrence Request System (CRS) system provides for the creation of reports by department or
by project officer. Additionally, the Contract Request Search tool can retrieve data from both the
GIFTS and Great Plains accounting system, so financial reports could be created to identify
payments, contract balances, and other contract information, but the system does not have the
ability to track deliverables. Project officers have established their own means to track
deliverables. While CSR and the Contract Request Search tool may have these capabilities, we
didn’t see any evidence that any special reports were created to facilitate contract oversight and
management. Further, the financial information in Great Plains only records CPB’s accounts
payables and cash disbursements. The accounting system does not record what grantees or
contractors have reported to CPB as expenditures incurred for these projects. Grantee reports
would include all project expenditures, including expenditures from non-CPB funding sources.
This information is needed to evaluate the total projects costs against the approved budget to
determine compliance with agreement terms, as well as ensure CPB is only paying its
proportionate share of the project’s total costs.

Recommendations

We recommend that CPB management take actions to:

1) Ensure project officers closeout grants/contracts on a timely basis in accordance with
   established CPB procedures, policies, and guidelines by monitoring the status of all open
   grants/contracts.

2) Establish a performance objective in departmental manager’s and project officer’s job
   performance elements to manage grants/contracts in accordance with established CPB
   procedures, policies, and guidelines in a timely fashion, including closeout, to ensure the
   efficient and effective use of CPB funds.

3) Provide training to departmental managers and project officers on grant/contract management
   procedures, policies, and guidelines.

4) Reconsider the need to develop a common grant/contract project management system to be
   used by all departments and project officers to facilitate executive oversight across CPB
   departments.

5) Amend the grant period ending date for the one open project identified in Exhibit C.

       CPB Management Response

In response to the draft report, CPB management concurs generally with the findings and
recommendations in the draft report with respect to project officer oversight of grants and
contracts. They said they will take under advisement the establishment of formal project officer
performance objectives pertaining to management of grants and contracts and will continue to
provide training to department managers and project officers.

Regarding the recommendation to develop a more thorough project management system, they
said they will continue to work on the creation of a new system within the financial constraints of
reduced operating funds. Further, the contract referenced in the report’s final recommendation is
in the final stages of close out and accordingly, CPB does not believe amending the contract is
beneficial.

                                                 6
Regarding our finding on deobligating CPB’s proportionate share of the funds where projects were
completed under budget, CPB management referenced additional documentation for our
consideration, citing grant language that CPB will provide reimbursement of actual fees and
expenses up to $200,000. CPB received required documentation from the grantee to support the
full payment of $200,000. CPB officials stated that the final payment of $20,000 was made based
on the grantee’s performance and in compliance with the terms of the grant and not based on its.
deobligation policy.

       OIG Review and Comment

Based on management’s response we consider recommendations 1 and 3 resolved but open
pending implementation of CPB’s corrective actions. We consider recommendations 2 and 4 are
unresolved pending CPB final management decision. Since CPB officials declined to implement
recommendation 5 and we do not believe it warrants elevating for higher review, we consider it
resolved and closed.

Regarding CPB’s comments related to misapplying its deobligation policy, we noted in our sample
that two other grants had similar grant language regarding reimbursing the grantee for actual fees
and expenses up to the amount of the budget identified as “Total CPB Commitment.” In those
two instances CPB deobligated $410,000 and $338,848. CPB should consider clarifying in its
grants terms how it will deal with grants that are completed under budget.




                                                7
                                                                     Exhibit A

                Schedule of Open Grants/Contracts with Expirations
                 Dates of June 30, 2011 or Earlier, as of June 2012


Fiscal Year         Number                      Unexpended
                                   Cumulative                    Cumulative
  Ended         Grants/Contracts                 Accounts
                                     Total                         Total
                                                  Payable


    2001               2               2            $40,000.00      $40,000.00
    2003               1               3            $20,000.00      $60,000.00
    2004               1               4             $3,110.00      $63,110.00
    2005               2               6           $415,699.06     $478,809.06
    2006               6               12          $104,262.36     $583,071.42
    2007               6               18          $149,891.00     $732,962.42
    2009               7               25        $1,891,657.15   $2,624,619.57
    2010              15               40        $1,004,632.15   $3,629,251.72
June 30, 2011          7               47        $2,805,406.16   $6,434,657.88


   Totals             47                        $6,434,657.88




                                            8
                                                                                                                                  Exhibit B

                             Analysis of Open Accounts Payables Balances and Ending Balances
                                                    as of October 2012

                Beginning    Beginning                                                   Misclassified   Ending #     Ending
                # Grants /   Accounts      Refunded to                                   or Amended       Grants /   Accounts
Fiscal Year     Contracts     Payable         CPB         Payments       Deobligations     in GIFTS      Contracts    Payable


    2001            2            $40,000            $0       $20,000           $20,000                       0               $0
    2003            1            $20,000            $0           $0            $20,000                       0               $0
    2004            1             $3,110       ($2,192)          $0             $5,302                       0               $0
    2005            2           $415,699            $0           $0           $415,699                       0               $0
    2006            6           $104,262            $0           $0           $104,262                       0               $0
    2007            6           $149,891            $0           $0            $99,891                       1          $50,000
    2009            7         $1,891,657            $0      $160,500           $26,157      $1,705,000       0               $0
    2010           15         $1,004,632       ($7,454)     $640,638          $234,400         $40,000       2          $97,048
June 30, 2011       7         $2,805,406       ($9,060)     $668,211          $430,613      $1,703,142       1          $12,500


   Total           47        $6,434,658       ($18,706)   $1,489,349        $1,356,324     $3,448,142       4          $159,549




                                                                     9
                                                                                                                                                       Exhibit C

                                          Sampled Projects Lapsed Day Analysis and Schedule of
                                                   Noncompliance with CPB Practices

                                                                                                                                    Noncompliance
                                                      Final        Lapsed
                           Grant        Report      Payment /      Days -                                                        Closeout    Deoblig
   Grantee    Grant #     End Date     Due Date      Deoblig      Due/Final      $ Amount         Deobligated       Payment      Checklist    Policy


Closed-out:
Grantee A     #11148       9/30/10      11/15/10      4/10/12        512           $100,000                           $100,000      X
Grantee B     #11497       2/14/10      3/31/10       7/13/12        835            $20,000                            $20,000      X          X
Grantee C     #12137       4/30/10      6/15/10       6/11/12        727           $154,329                           $154,329
Grantee D     #11027       9/14/11      10/30/11      4/10/12        163           $172,000                           $172,000      X
Grantee E      #8251      11/15/04      6/15/06       4/25/12       2,141          $410,000           $410,000                      X
Grantee E     #13161       6/30/10      10/15/10      4/16/12        549           $145,100           $111,671         $33,429      X
Grantee C     #13379       6/30/11      8/31/11       9/17/12        383           $978,380           $338,848        $639,532

Grantee F      #8938      12/31/07      2/15/08      10/15/12       1,074            $5,000             $5,000                      X


Open:
Grantee G      #6086       6/15/08      6/15/08                     1,583*          $50,000


              * Lapsed days calculated from report due date to October 15, 2012, latest date sampled items were deobligated.




                                                                                     10
                                                                            Exhibit D

                     PROJECT OFFICER’S GRANT/CONTRACT
                        AVERAGE WORKLOAD FY 2012



                                Average #       # of Project      Average #
        Department           Grants/Contracts     Officers     Grants/Contracts



Education                          57                6               9.5
Media Technologies                 52                3               17.3
Television                         71                7               10.0
Radio                              31                5               6.2
Media Strategies                   53                6               8.8


             Total                 264              27               9.8




                                         11
                                                                                        Exhibit E

                               SCOPE AND METHODOLOGY

We conducted our evaluation in accordance with the Council of Inspectors General on Integrity
and Efficiency’s (CIGIE) Quality Standards for Inspection and Evaluation, dated January 2011.
The objectives of our evaluation were to: 1) verify funds available to deobligate; 2) actions taken
by project officers to close-out grants/contracts; and 3) compliance with CPB Contract Close-out
Procedures, Deobligation Policy, and the Project Officer Handbook. We performed our evaluation
field work during the period June through October 2012.

The scope of the evaluation included tests of expired grantee/contractor agreements with ending
dates of June 30, 2011 or earlier. The grants/contracts evaluated were sampled from the
Educational Programming and Services, Media Strategies, Media Technologies, TV
Programming, and Radio departments. Grant/contract agreements, deliverable reports, e-mail
correspondence, and project officer files were reviewed as part of our evaluation.

In conducting our work, we discussed the award and administration of the grants/contracts with
CPB officials, Office of Business Affairs, Office of Budget and Finance, and respective department
management staff. We verified grant/contract deliverables to agreement requirements by
judgmentally sampling 9 grant/contract agreements valuated at $9,735,101.

We gained an understanding of the methods used by the executive staff and departmental
management to oversee and ensure projects were properly managed, deliverables were received,
final payments made, unused funds deobligated, and agreements closed out timely in accordance
with CPB procedures, policies, and guidelines.




                                                12
Exhibit F
